ES, IG-98-035, NASA General-Purpose Vehicles Acquisition and Use
NASA GENERAL-PURPOSE VEHICLES
ACQUISITION AND USE
IG-98-035
Executive Summary
Background
NASA Centers maintain fleets of general-purpose vehicles to meet NASA and
basic contractor transportation needs.  These fleets consist of both General
Services Administration (GSA) leased and NASA-owned vehicles.  Congress has
passed several laws to ensure the proper management and use of Government
vehicle fleets.
Objectives
The overall objective of the audit was to evaluate the effectiveness of
NASA's Government vehicle program. Specifically, we determined whether:
the four NASA Centers we reviewed appropriately sized their vehicle
fleets to meet Agency needs;
NASA Centers procured and maintained vehicles for the Agency in the
most economical manner; and
alternative means were available to meet mission requirements.
We conducted our audit at Goddard Space Flight Center (GSFC), John F.
Kennedy Space Center (KSC), Lewis Research Center (LeRC), and George C.
Marshall Space Flight Center (MSFC).  Additional information on the
objectives, scope, and methodology is in Appendix A.
Results of Audit
Center vehicle fleet managers were customer oriented and generally very
effective in meeting the staff's vehicle needs.  Results from our vehicle
user questionnaire showed that users were generally satisfied with both the
quality of the equipment and the service provided (see Appendix B).  All
four Centers, however, had excess vehicles.  Further, two Centers continue
to purchase and maintain vehicles, rather than lease vehicles through GSA.
NASA can save from about $900,000 to $1.7 million annually by disposing of
underutilized vehicles.  The Agency may also be able to save from $390,000
to $1.9 million annually by converting owned vehicles to GSA leases.
During the audit, we issued a report to MSFC and a management letter to
GSFC. The report
(1) discussed the need for management at MSFC
to reduce the
number of contractor vehicle maintenance staff.  Management subsequently
eliminated four contractor maintenance positions, which resulted in an
estimated annual savings of $163,000.  The letter
(2) discussed reducing GSFC
contract costs by eliminating contractor tracking and reporting of the use
of 16 commercially leased vehicles.  Management subsequently agreed to
delete the vehicle reporting requirement from the contract and to
discontinue reporting these vehicles in the annual Agency Report of Motor
Vehicle Data.
Recommendations
NASA Centers should reduce costs by identifying and eliminating underutilized
general-purpose vehicles and acquire and maintain vehicles in the most
economical manner.
Management's Response
Management concurred with all recommendations and will take actions to
eliminate underutilized vehicles and convert to leasing when beneficial to
NASA.  We consider planned actions responsive to the intent of the
recommendations.
FOOTNOTES
1.  Rapid Action Report No. IG-97-036, "MSFC Vehicle
Fleet Conversion: Additional Savings Possible," September 9, 1997.
2.  Management Letter No. M-IG-97-013, "Observations
Regarding Reporting of Vehicle Utilization Data for Commercial Leases,"
September 30, 1997.